Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE DRUG INTEGRITY
CONTRACTORS’ IDENTIFICATION
 OF POTENTIAL PART D FRAUD
        AND ABUSE




                    Daniel R. Levinson
                     Inspector General

                      October 2009
                     OEI-03-08-00420
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
I N T R O D        U C T               I O N
Δ    E X E C U T I V E                                          S U M M A R Y


                    OBJECTIVE
                    (1) To determine the extent to which Medicare Drug Integrity
                    Contractors (MEDIC) identified and investigated potential Part D fraud
                    and abuse incidents and whether these incidents were identified
                    through external sources or proactive methods.

                    (2) To describe any issues or barriers MEDICs encountered in
                    identifying or investigating potential fraud and abuse incidents.


                    BACKGROUND
                    The Medicare Prescription Drug, Improvement, and Modernization Act
                    of 2003 established Medicare Part D to provide prescription drug
                    benefits under the Medicare program beginning January 1, 2006. As of
                    February 2009, 27 million beneficiaries were enrolled in Part D plans.
                    Total expenditures for Part D benefits were $49.5 billion in 2007.

                    Prior to implementing the Part D benefit, the Centers for Medicare &
                    Medicaid Services (CMS) developed a strategy to help combat Part D
                    fraud and abuse. One of the key aspects of this strategy was MEDICs’
                    use of innovative techniques for data analysis. Beginning in fiscal year
                    (FY) 2007, CMS awarded contracts to three regional MEDICs to address
                    potential fraud and abuse related to the Part D benefit.

                    According to the MEDICs’ Statement of Work and their individual task
                    orders, MEDICs’ responsibilities include, but are not limited to,
                    identifying potential Part D fraud and abuse through external sources
                    and proactive methods; fulfilling requests for information from law
                    enforcement agencies; investigating potential Part D fraud and abuse;
                    referring cases and making immediate advisements regarding potential
                    Part D fraud or abuse to the Office of Inspector General (OIG);
                    recommending appropriate administrative actions to CMS; identifying
                    program vulnerabilities; and auditing the fraud, waste, and abuse
                    programs that are part of plan sponsors’ compliance plans. We
                    reviewed MEDIC data covering FY 2008, the second year of MEDICs’
                    operations.


                    FINDINGS
                    MEDICs identified 4,194 incidents of potential fraud and abuse and
                    investigated 1,320 incidents; most incidents were identified through
                    external sources rather than proactive methods. MEDICs identified

 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         i
E X E C U T I V E                          S U            M M A R Y


                   4,194 incidents of potential fraud and abuse in FY 2008. CMS’s
                   strategy for combating Part D fraud and abuse emphasized the
                   importance of using new and innovative data analysis techniques.
                   However, MEDICs identified 87 percent (3,641) of potential fraud and
                   abuse incidents through external sources, primarily complaints, in
                   FY 2008. The remaining 13 percent (553) of potential fraud and abuse
                   incidents were identified through proactive methods, such as data
                   analysis.

                   MEDICs conducted 1,320 investigations in FY 2008. Ninety-six percent
                   of these investigations involved incidents of potential fraud and abuse
                   identified through external sources. In addition, MEDICs made
                   65 referrals and 34 immediate advisements to OIG, made 257 referrals
                   to State insurance commissioners, and made 39 referrals to CMS for
                   administrative action in FY 2008.
                   Problems with accessing and using data hindered MEDICs’ ability to
                   identify and investigate potential fraud and abuse incidents.
                   MEDICs reported that they need both Part D prescription drug event
                   (PDE) data and data regarding Medicare Part B to effectively identify
                   and investigate instances of potential Part D fraud and abuse.
                   However, MEDICs did not receive access to PDE data until August
                   2007, nearly a year after their contracts began. In addition, two
                   MEDICs were not given access to Part B data until the fall of 2008,
                   2 years after their contracts began. The third MEDIC did not receive
                   access to Part B data before its contract ended. Once they received
                   access to PDE data, MEDICs reported that important variables were
                   not part of the PDE data, making effective data analysis difficult.
                   MEDICs also indicated that when they accessed PDE data, different
                   types of prescriber identifiers were not stored in the correct fields, which
                   affected the results of their data analysis.
                   MEDICs’ lack of authority to directly obtain information from
                   pharmacies, pharmacy benefit managers, and physicians hindered
                   their ability to investigate potential fraud and abuse incidents.
                   MEDICs did not have the authority to directly obtain prescriptions and
                   medical records from entities, such as pharmacies, pharmacy benefit
                   managers, and physicians, in FY 2008. MEDICs reported that because
                   CMS contracts with plan sponsors, MEDICs had the authority to
                   request information only from the plan sponsors. MEDICs indicated
                   that these restrictions hindered their ability to investigate incidents of
                   potential fraud and abuse.


 OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                        ii
E X E C U T I V E                          S U            M M A R Y


                   MEDICs may not have been aware of some potential fraud and
                   abuse incidents because plan sponsors are not required to refer
                   them. Plan sponsors are encouraged to refer potential fraud and abuse
                   incidents to MEDICs but are not required to do so. One MEDIC stated
                   it received relatively few referrals compared to the number of plan
                   sponsors in its jurisdiction. The other two MEDICs indicated that while
                   some plans referred incidents of potential fraud and abuse, other plans
                   had never referred any such incidents.
                   CMS did not give MEDICs approval to conduct audits of plan
                   sponsors’ compliance plans in FY 2008. As outlined in the Statement
                   of Work and their individual task orders, MEDICs are responsible for
                   conducting audits of plan sponsors’ compliance plans. However, none of
                   these audits were conducted in FY 2008. All three MEDICs indicated
                   that they were prepared to conduct compliance plan audits in FY 2008
                   but were not given approval by CMS to do so. Between October and
                   December 2008, 2 years after MEDICs’ regional contracts began, the
                   two remaining MEDICs did receive approval from CMS to begin
                   10 audits of plan sponsors’ compliance plans.


                   RECOMMENDATIONS
                   In 2005, prior to the start of the Part D program, CMS outlined a
                   strategy in which innovative data analysis, conducted primarily by
                   MEDICs, was one of the keys to combating Part D fraud and abuse.
                   The Part D program is now in its fourth year, and while CMS has
                   reprioritized its oversight activities since 2005 because of budget
                   shortfalls, proactive data analysis remains an important tool in its
                   efforts to fight Part D fraud and abuse.

                   Combating Part D fraud and abuse involves a number of key
                   participants, including CMS, plan sponsors, and MEDICs. Previous
                   OIG reviews have focused on plan sponsors’ identification of fraud and
                   abuse as well as CMS’s oversight of the Part D program. All of these
                   reviews identified vulnerabilities in the efforts to combat Part D fraud
                   and abuse. For example, one OIG review found that a quarter of plan
                   sponsors did not identify any incidents of potential fraud and abuse.
                   Another OIG review found that CMS had not conducted any significant
                   data analysis for fraud detection purposes and had relied largely on
                   complaints to identify potential fraud and abuse.

                   Our current review found that during their second year of operations,
                   MEDICs identified most incidents of potential fraud and abuse through

 OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                        iii
E X E C U T I V E                          S U            M M A R Y


                   external sources, such as complaints, rather than proactive methods. In
                   addition, various problems have hindered MEDICs’ ability to identify
                   and investigate potential fraud and abuse incidents. Also, CMS did not
                   give MEDICs approval to conduct compliance plan audits in FY 2008.
                   CMS’s strategy was intended to combat fraud and abuse, partially
                   through data analysis. However, MEDICs reported that barriers
                   hindered their ability to consistently conduct comprehensive data
                   analysis to detect and prevent potential fraud and abuse.

                   Therefore, we recommend that CMS:
                   Ensure MEDICs have access to accurate and comprehensive data to
                   assist them in identifying and investigating potential fraud and
                   abuse and conducting proactive data analysis.
                   Authorize MEDICs to directly obtain information that they need to
                   identify and investigate potential fraud and abuse from entities,
                   such as pharmacies, pharmacy benefit managers, and physicians.
                   We recognize that implementing this recommendation may require
                   statutory or regulatory change.

                   Require plan sponsors to report all potential fraud and abuse
                   incidents that are referred to law enforcement agencies to MEDICs
                   as well. If plan sponsors refer potential fraud and abuse to law
                   enforcement agencies, they should also share this information with
                   MEDICs to help MEDICs identify fraud and abuse trends and target
                   problem providers.
                   Ensure MEDICs have approval to conduct compliance plan audits
                   that they are responsible for under their task orders and Statement
                   of Work. While MEDICs did not have CMS’s approval to conduct
                   compliance plan audits in FY 2008, they did receive approval to conduct
                   10 of these audits in early FY 2009. CMS should make approval of
                   additional compliance plan audits a priority in the future.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with three of our four recommendations. CMS stated
                   that it is committed to ensuring that its contractors have access to the
                   information they need to identify, prevent, and fight Part D fraud.

                   CMS concurred with our first recommendation regarding MEDICs’
                   access to data; however, it did not provide a timeframe for
                   implementation. CMS did not indicate whether it concurred with our

 OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                        iv
E X E C U T I V E                          S U            M M A R Y


                   second recommendation. Instead, CMS stated that it recognizes the
                   value of the recommendation but that its statutory authority to collect
                   information directly from downstream entities is limited. We
                   acknowledge in our recommendation that statutory or regulatory
                   change may be needed and we encourage CMS to seek these changes.
                   CMS concurred with our third recommendation; however, CMS stated
                   that it currently does not have the regulatory basis to require that plan
                   sponsors report these incidents. We disagree and believe current
                   regulations give CMS the ability to require that MEDICs be provided
                   with such reports. CMS concurred with our fourth recommendation;
                   however, it did not provide details on the number of compliance plan
                   audits it would conduct.

                   We ask that CMS, in its final management decision, more clearly
                   indicate whether it concurs with our second recommendation and what
                   steps, if any, it will take to implement both our second and third
                   recommendations. In addition, we ask that CMS provide more detail
                   regarding its implementation of our first and fourth recommendations.




 OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                        v
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   MEDICs identified 4,194 incidents of potential fraud and abuse
                   and investigated 1,320 incidents; most incidents were identified
                   through external sources rather than proactive methods . . . . . . . . 8

                   Problems with accessing and using data hindered MEDICs’ ability
                   to identify and investigate potential fraud and abuse incidents . . 11

                   MEDICs’ lack of authority to directly obtain information from
                   pharmacies, pharmacy benefit managers, and physicians hindered
                   their ability to investigate potential fraud and abuse incidents . . 13

                   MEDICs may not have been aware of some potential fraud
                   and abuse incidents because plan sponsors are not required to
                   refer them . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                   CMS did not give MEDICs approval to conduct audits of plan
                   sponsors’ compliance plans in FY 2008 . . . . . . . . . . . . . . . . . . . . . 15


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                   Agency Comments and Office of Inspector General Response . . . 17


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                   A: Top Five Types of Potential Fraud and Abuse Investigated
                      and Referred . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  (1) To determine the extent to which Medicare Drug Integrity
                  Contractors (MEDIC) identified and investigated potential Part D fraud
                  and abuse incidents and whether these incidents were identified
                  through external sources or proactive methods.

                  (2) To describe any issues or barriers MEDICs encountered in
                  identifying or investigating potential fraud and abuse incidents.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 established Medicare Part D to provide prescription drug
                  benefits under the Medicare program beginning January 1, 2006. 1 As of
                  February 2009, 27 million beneficiaries were enrolled in Part D plans. 2
                  Total expenditures for Part D benefits were $49.5 billion in 2007. 3
                  Medicare Drug Integrity Contractors
                  Prior to implementing the Part D benefit, CMS developed a strategy to
                  help combat Part D fraud and abuse. One of the key aspects of this
                  strategy was MEDICs’ use of innovative techniques for data analysis.
                  Beginning in fiscal year (FY) 2007, CMS awarded contracts to three
                  regional MEDICs to address potential fraud and abuse related to the
                  Part D benefit. 4
                  MEDICs received $11.6 million in FY 2008 to carry out their contracted
                  responsibilities. The three regional MEDICs and their contract
                  payments for FY 2008 were:
                  •       MEDIC West–Science Applications International Corporation,
                          $4.1 million;


                    1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,

                  P.L. No. 108-173, Social Security Act, § 1860D-1(a)(2), 42 U.S.C. § 1395w-101(a)(2).
                    2 Centers for Medicare & Medicaid Services (CMS), “Monthly Contract Summary
                  Report,” February 2009. Available online at
                  http://www.cms.hhs.gov/MCRAdvPartDEnrolData/MCESR/list.asp#TopOfPage. Accessed
                  on February 27, 2009.
                      3 The Boards of Trustees of the Federal Hospital Insurance and Federal Supplementary
                  Medical Insurance Trust Funds, “2008 Annual Report,” March 2008, page 111. Available
                  online at http://www.cms.hhs.gov/ReportsTrustFunds/downloads/tr2008.pdf. Accessed on
                  April 22, 2008.
                    4 In FY 2006, MEDIC Southeast was awarded a national contract to monitor fraud and
                  abuse related to Part D enrollment and eligibility issues. In FY 2007, MEDIC Southeast
                  became a regional MEDIC.



OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                       1
I N T R O D        U C T               I O N



                    •       MEDIC North–SafeGuard Services, $3.8 million; and

                    •       MEDIC Southeast–Health Integrity, $3.7 million.

                    As of September 2008, MEDIC West’s jurisdiction covered 21 States and
                    9.6 million beneficiaries, 5 MEDIC North covered 27 States and
                    11.7 million beneficiaries, and MEDIC Southeast covered 8 States and
                    5.9 million beneficiaries. MEDIC West’s contract was not renewed
                    when it ended in September 2008. CMS transitioned the responsibility
                    for the States and beneficiaries in MEDIC West’s jurisdiction to the two
                    remaining MEDICs during October and November 2008.
                    MEDICs’ responsibilities are detailed in the “MEDIC Statement of
                    Work” and individual task orders issued to each MEDIC. 6 According to
                    the Statement of Work, MEDICs’ responsibilities include, but are not
                    limited to:

                    •       identifying potential Part D fraud and abuse through external
                            sources and proactive methods;

                    •       fulfilling requests for information from law enforcement agencies;

                    •       investigating potential Part D fraud and abuse;

                    •       referring cases and making immediate advisements regarding
                            potential Part D fraud or abuse to the Department of Health and
                            Human Services Office of Inspector General (OIG);

                    •       recommending appropriate administrative actions to CMS;

                    •       identifying program vulnerabilities; and

                    •       auditing the fraud, waste, and abuse programs that are part of plan
                            sponsors’ compliance plans.

                    Individual task orders include these responsibilities as part of the
                    activities each MEDIC is required to perform.
                    Types of Fraud and Abuse
                    According to the Statement of Work, fraud is the intentional deception
                    or misrepresentation that an individual makes, knowing it to be false,
                    that could result in some unauthorized benefit to himself/herself or


                        5 MEDIC jurisdictions include all 50 States, U.S. territories, and the District of Columbia

                    (hereinafter referred to as States).
                        6 CMS, “MEDIC Statement of Work,” §§ 3.2 and 6.1.2, Rev. 2, September 28, 2007.




 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         2
I N T R O D        U C T               I O N


                    some other person. 7 Types of Part D fraud include, but are not limited
                    to, billing for drugs or services not provided, altering prescriptions to
                    obtain a higher payment amount, using another person’s Medicare card
                    to obtain prescriptions, and billing for brand-name drugs when generics
                    are dispensed. Abuse involves behavior that an individual should have
                    known to be false that could result in some unauthorized benefit.
                    Examples of abuse include billing Medicare for services that are not
                    covered or coding services incorrectly.
                    Fraud and Abuse Identification
                    MEDICs are required to identify potential fraud and abuse through
                    both external sources and proactive methods.

                    External sources and proactive methods. Complaints are a primary
                    external source of fraud leads. Fraud complaints may come directly to
                    the MEDICs through the MEDICs’ toll-free number, mail, and fax.
                    MEDICs may receive complaints from Medicare beneficiaries, relatives,
                    or other Medicare contractors. In addition, MEDICs may receive leads
                    about potential fraud and abuse from other external sources, such as
                    law enforcement agencies, Part D plan sponsors, or CMS.

                    Proactive techniques for identifying fraud can include analyzing claims
                    data, conducting Internet searches to identify leads, and analyzing
                    complaint data for trends. According to the Statement of Work, the
                    MEDICs’ ability to use innovative analytical methodologies is critical to
                    the success of a benefit integrity program. 8 In addition, since the
                    beginning of the Part D program, CMS has issued press releases
                    emphasizing the importance of using new and innovative data analysis
                    techniques to combat Part D fraud and abuse. 9 Proactive data analysis
                    can enable MEDICs to identify indicators of potential fraud, such as
                    duplicate billing or billing for drugs without an associated doctor visit.

                    Data sources. To identify potential fraud and abuse occurring in the
                    Part D program, MEDICs are required to access and analyze different



                        7 Ibid., § 2.1.
                        8 Ibid., § 6.2.
                        9 CMS, “The New Medicare Prescription Drug Program: Attacking Fraud and Abuse,”
                    October 7, 2005. Available online at
                    http://www.cms.hhs.gov/apps/media/press/factsheet.asp?Counter=1693. Accessed on
                    March 18, 2009; CMS, “Medicare Finds Billions in Savings to Taxpayers,” October 11, 2006.
                    Available online at http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=2030.
                    Accessed on March 31, 2009.



 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         3
I N T R O D        U C T               I O N


                    kinds of data. 10 Specifically, MEDICs must access Part D prescription
                    drug event (PDE) data. When beneficiaries fill prescriptions covered
                    under Part D, their prescription drug plans must submit electronic
                    summary records called PDE records to CMS. The PDE records contain
                    Part D prescription drug cost and payment data. The PDE data are
                    stored in a CMS database called the Integrated Data Repository.
                    MEDICs are able to access this database using SAS programming
                    software or through a software application called Cognos.

                    Medicare Part B claims are another important source of data for
                    analysis. Part B claims include claims for physician services that
                    provide information on a beneficiary’s doctor visit and a beneficiary’s
                    diagnosis. This information can be used to determine whether a
                    prescription has a corresponding office visit and whether a drug was
                    prescribed appropriately.

                    According to the Statement of Work, MEDICs will have access to
                    Medicare Part B, Part D, and other data, such as Medicaid and
                    Medicare Part A, through an integrated system. 11 However, the full
                    transition to this system is not expected to be complete until 2011.
                    Until then, MEDICs must access data through individual systems.
                    Fraud and Abuse Investigation and Referral
                    MEDICs are required to investigate potential fraud and abuse and,
                    when appropriate, refer potential fraud and abuse cases to OIG. 12
                    Cases referred to OIG may be accepted for investigation, returned to the
                    MEDIC for further development, declined and referred to another law
                    enforcement agency for investigation, or declined and referred back to
                    the MEDIC for possible CMS administrative action.

                    Investigations. MEDICs are required to conduct investigations when
                    they receive allegations of fraud from external sources or proactively
                    identify potentially fraudulent situations. An investigation is the
                    analysis performed to determine the facts and the magnitude of
                    potential fraud. An investigation may include a review of a sample of
                    PDE claims, beneficiary interviews, or a review of original
                    prescriptions. MEDICs are required to consult with OIG to
                    determine whether or not the investigation should be further developed
                    for possible case referral to OIG.

                        10 CMS, “MEDIC Statement of Work,” § 6.2, Rev. 2, September 28, 2007.
                        11 Ibid., § 6.2.
                        12 Ibid., § 6.1.2, § 6.5.1.




 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         4
I N T R O D        U C T               I O N


                    If an investigation does not result in a case referral or the case is not
                    accepted by OIG, the MEDICs may refer the incident to CMS for
                    administrative action. Administrative actions can include recovery of
                    overpayments, suspension of payments, or imposition of civil monetary
                    penalties. In addition, investigations involving insurance sales agents
                    may result in referrals to State insurance commissioners who are
                    responsible for licensing these agents.

                    Case referrals and immediate advisements. MEDIC investigations result
                    in case referrals when the MEDIC has documented allegations that a
                    provider, beneficiary, pharmacy, pharmacy benefit manager, or Part D
                    plan has: (1) engaged in a pattern of improper prescription writing or
                    billing, (2) submitted improper claims with actual knowledge of their
                    falsity, or (3) submitted improper claims with reckless disregard or
                    deliberate ignorance of their truth or falsity. 13
                    Certain allegations are referred directly to OIG without a MEDIC
                    investigation. These are called immediate advisements and include
                    complaints by current or former employees of a suspected provider,
                    Part D plan sponsor, or subcontractor; or involve entities that are the
                    subject of ongoing OIG fraud investigations.
                    Medicare Drug Integrity Contractor Reporting Requirements
                    According to the Statement of Work, MEDICs are required to submit
                    certain reports to CMS. One of these is a monthly referral log. MEDICs
                    report their new case referrals and immediate advisements sent to OIG
                    in this log as well as update the status of their previous referrals. The
                    referral log also contains referrals MEDICs sent to State insurance
                    commissioners.

                    In addition, MEDICs must submit quarterly reports to CMS on
                    vulnerabilities identified within the Part D program during the previous
                    quarter and possible ways to address them.
                    Previous Office of Inspector General Work
                    OIG has issued several reports regarding oversight of the Part D
                    program. In October 2007, OIG issued a report that examined CMS’s
                    early implementation of safeguards against Part D fraud and abuse. 14
                    The report found that some safeguards were in place but that others,

                        13 Ibid., § 6.5.
                        14 OIG, “CMS’s Implementation of Safeguards During Fiscal Year 2006 To Prevent and
                    Detect Fraud and Abuse in Medicare Prescription Drug Plans,” OEI-06-06-00280,
                    October 2007.



 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         5
I N T R O D        U C T               I O N


                    such as data analysis to detect and prevent fraud and abuse, had not yet
                    begun. The report also found that CMS relied largely on complaints to
                    identify fraud and abuse and had not begun financial or compliance
                    audits.

                    An October 2008 OIG report examined the extent to which Medicare
                    Part D plan sponsors identified and took steps to address potential
                    fraud and abuse in the first 6 months of 2007. 15 The report found that
                    over a quarter of plan sponsors did not identify any incidents of fraud
                    and abuse. The report also found that a few plan sponsors identified
                    most incidents of potential fraud and abuse. Even those sponsors that
                    identified potential fraud and abuse incidents did not always conduct
                    inquiries or take corrective actions. Just two plan sponsors made
                    89 percent of all referrals of incidents to MEDICs.

                    Two OIG reports focused on plan sponsors’ compliance plans. The first
                    report, issued in December 2006, examined plan sponsors’ compliance
                    plans at the start of the Part D program. 16 The report found that few
                    sponsors’ plans met all of CMS’s requirements or addressed all of the
                    recommendations for the prevention, detection, and correction of fraud,
                    waste, and abuse. The second report, issued in October 2008, examined
                    CMS’s oversight of plan sponsors’ compliance plans. 17 OIG found that
                    CMS conducted limited followup on the deficiencies that OIG had
                    identified in its 2006 report, such as plan sponsors’ lack of documented
                    procedures for internal monitoring and auditing. CMS also did not
                    conduct the routine compliance plan audits it originally had planned.


                    METHODOLOGY
                    Data Collection and Analysis
                    We collected data from each of the three MEDICs regarding FY 2008,
                    the regional MEDICs’ second year of operations. 18 We asked MEDICs


                        15 OIG, “Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse,”

                    OEI-03-07-00380, October 2008.
                        16 OIG, “Prescription Drug Plan Sponsors’ Compliance Plans,” OEI-03-06-00100,
                    December 2006.
                        17 OIG, “Oversight of Prescription Drug Plan Sponsors’ Compliance Plans,”
                    OEI-03-08-00230, October 2008.
                        18 In September 2008, MEDIC West’s contract with CMS was not renewed. CMS
                    transitioned the responsibility for the States in MEDIC West’s region to the remaining two
                    MEDICs during October and November 2008. We completed collecting data from MEDIC
                    West before this transition was finalized.



 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         6
I N T R O D        U C T               I O N


                    for the number of incidents of fraud and abuse identified, investigations
                    conducted, cases referred and immediate advisements made to OIG,
                    referrals to State insurance commissioners, and administrative actions
                    referred to CMS. 19 We also requested that MEDICs identify the
                    external sources and proactive methods they used to identify potential
                    fraud and abuse. In addition, we asked MEDICs to identify the types of
                    potential fraud and abuse investigated and referred as cases or
                    immediate advisements to OIG. We asked MEDICs to describe any
                    issues or barriers they encountered in identifying or addressing
                    potential fraud and abuse incidents. We reviewed this information to
                    determine the extent to which MEDICs both identified potential fraud
                    and abuse incidents and took action regarding such incidents.

                    From CMS, we obtained reports submitted by each of the MEDICs for
                    FY 2008, including vulnerability reports and logs of case referrals,
                    immediate advisements, and State insurance commissioner referrals.
                    We reviewed this information to determine whether it corresponded
                    with the information provided by the MEDICs as part of our data
                    request. We also reviewed the vulnerability reports to determine
                    whether the MEDICs identified any limitations in addressing
                    Part D fraud and abuse.

                    After we reviewed the data from the MEDICs and the reports from
                    CMS, we conducted onsite visits to each MEDIC to clarify and gain a
                    better understanding of the information we received. We asked
                    MEDICs for further information on their processes for identifying and
                    addressing incidents of potential fraud and abuse. We also asked
                    MEDICs to elaborate on any issues or barriers to identifying or
                    addressing the potential fraud and abuse incidents described in their
                    response to our data request. We compared this information with the
                    vulnerability reports provided by CMS to identify any additional
                    information on limitations in addressing Part D fraud and abuse.

                    Data collection was conducted between September 30 and
                    December 18, 2008.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.


                        19 We included follow-up education as an administrative action.




 OEI-03-08-00420    M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                         7
 Δ        F I N D I N G S



            MEDICs identified 4,194 incidents of           MEDICs identified 4,194 incidents of
    potential fraud and abuse and investigated             potential fraud and abuse in FY 2008.
           1,320 incidents; most incidents were            This represents 15 incidents of
                                                           potential fraud and abuse for every
identified through external sources rather than
                                                           100,000 beneficiaries enrolled in
                             proactive methods
                                                           Part D plans. Since the beginning of
                        the Part D program, CMS has issued press releases emphasizing the
                        importance of using new and innovative data analysis techniques to
                        combat Part D fraud and abuse. However, in FY 2008, MEDICs
                        identified most incidents of potential fraud and abuse through external
                        sources rather than proactive methods.
                        Identification of potential fraud and abuse incidents. Eighty-seven percent
                        (3,641) of the potential fraud and abuse incidents MEDICs identified in
                        FY 2008 were identified through external sources. Complaints were the
                        primary external source of potential fraud and abuse incidents MEDICs
                        identified. Examples of other types of external sources included leads
                        from plan sponsors, law enforcement, and CMS.

                        MEDICs reported that they identified the remaining 13 percent (553) of
                        potential fraud and abuse incidents through proactive methods. Of the
                        553 potential fraud and abuse incidents identified through proactive
                        methods, MEDICs identified 93 percent through data analysis.
                        Examples of proactive analysis that MEDICs conducted included
                        identifying high prescribers of certain drugs and identifying pharmacies
                        with the highest Part D payments for prescription drugs. Other types of
                        proactive methods included conducting Internet searches and reviewing
                        media articles to identify leads.

                        MEDICs addressed incidents of potential fraud and abuse by conducting
                        investigations, sending immediate advisements and case referrals to
                        OIG, making referrals to State insurance commissioners, and making
                        referrals to CMS for administrative action.

                        Table 1 shows the number and percentage of incidents identified and
                        actions taken by the MEDICs and indicates whether the incidents
                        involved were identified through external sources or proactive methods.




      OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                             8
    F     I N D I N G            S




    Table 1. Number and Percentage of Externally and Proactively Identified Incidents and Actions Taken
    by MEDICs in FY 2008
      Incidents                             External                                                               Proactive
    Identified and                                                                                                                              Total
    Actions Taken              Number                      Percentage                               Number                         Percentage

         Incidents
                                3,641                              87%                                  553                           13%       4,194
         Identified


          Incidents
                    1           1,270                              96%                                   50                            4%       1,320
        Investigated


    Cases Referred
                                 52                                80%                                   13                           20%        65
       to OIG1

      Immediate
    Advisements to               33                                97%                                    1                            3%        34
         OIG

      Referrals to
    State Insurance                                                                                                                             257
    Commissioners2
      Referrals to
       CMS for
                                 39                               100%                                    0                            0%        39
     Administrative
        Action
Source: OIG analysis of MEDICs’ responses to data request.
1
 Investigations and case referrals to OIG may have involved incidents identified prior to our FY 2008 timeframe.
2
 We did not ask MEDICs to indicate whether incidents referred to State insurance commissioners were identified through external
sources or proactive methods.



                                      Investigations. MEDICs conducted a total of 1,320 investigations of
                                      incidents of potential fraud and abuse in FY 2008. This represents
                                      five MEDIC investigations for every 100,000 Part D beneficiaries. The
                                      top three types of potential fraud and abuse investigated by MEDICs
                                      were marketing schemes (40 percent), drug diversion by beneficiaries
                                      (21 percent), and inappropriate prescribing (17 percent). Other types
                                      included theft of beneficiary identity or money and inappropriate
                                      billing. Ninety-six percent (1,270) of MEDICs’ investigations involved
                                      incidents of potential fraud and abuse identified through external
                                      sources. Four percent (50) of investigations were based on incidents
                                      identified proactively.
                                      Case referrals and immediate advisements. MEDICs referred 65 cases of
                                      potential fraud and abuse to OIG in FY 2008. This represents one case
                                      referral for every 500,000 beneficiaries enrolled in Part D plans.



             OEI-03-08-00420          M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                                                        9
F   I N D I N G         S


                      Eighty percent of cases (52) referred to OIG involved incidents of
                      potential fraud and abuse identified through external sources. Twenty
                      percent (13) of case referrals involved incidents of potential fraud and
                      abuse identified through proactive methods. One MEDIC was
                      responsible for two-thirds of the referrals identified through proactive
                      methods.

                      Case referrals involved different types of potential fraud and abuse.
                      The three types referred most often were drug diversion by beneficiaries
                      (29 percent), inappropriate prescribing (26 percent), and inappropriate
                      billing (20 percent). Other types included theft of beneficiary identity or
                      money and marketing schemes. Appendix A provides examples of the
                      top five types of potential fraud and abuse investigated by MEDICs and
                      referred to OIG in FY 2008.

                      Of the 65 cases referred to OIG, 63 percent (41) of cases were accepted.
                      Another 28 percent (18) of referrals were declined by OIG but referred
                      to another law enforcement agency. The remaining 9 percent (6) of
                      referrals were either declined and referred back to the MEDIC for
                      possible CMS administrative action, were returned to the MEDIC for
                      further development, or were pending an OIG determination.

                      MEDICS made 34 immediate advisements to OIG in FY 2008.
                      Sixty-two percent of these involved marketing schemes and another
                      15 percent involved inappropriate billing. Ninety-seven percent (33) of
                      immediate advisements made to OIG involved potential fraud and
                      abuse incidents identified through external sources. One immediate
                      advisement involved a potential fraud and abuse incident identified
                      through proactive methods.
                      State insurance commissioner referrals. MEDICs made a total of
                      257 referrals to State insurance commissioners in FY 2008. These
                      referrals involved issues with insurance sales agents or brokers, such as
                      deceptive marketing. We did not ask MEDICs to break out whether
                      State insurance commissioner referrals involved incidents identified
                      through external sources or proactive methods. However, MEDICs
                      indicated that these referrals were based on incidents identified through
                      beneficiary complaints, an external source.

                      Administrative actions. MEDICs made 39 referrals to CMS for
                      administrative action in FY 2008. Eighty-five percent of these referrals
                      involved education, such as education of plan sponsors, as the type of
                      administrative action. MEDICs make referrals to CMS when a referral
                      to law enforcement is not warranted. For example, a MEDIC received

    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           10
F    I N D I N G         S


                       numerous complaints about deceptive marketing practices by agents of
                       a plan. In this instance, the MEDIC sent a referral to CMS to educate
                       the plan sponsor on its responsibility for overseeing agents’ marketing
                       activities. All 39 referrals (100 percent) made to CMS for
                       administrative action were based on incidents of potential fraud and
                       abuse identified through external sources.



           Problems with accessing and using data              MEDICs reported that they
            hindered MEDICs’ ability to identify and           need both PDE data and data
                                                               regarding Medicare Part B
    investigate potential fraud and abuse incidents
                                                               services to effectively identify
                       and investigate instances of potential Part D fraud and abuse.
                       However, all MEDICs reported problems with accessing and learning
                       how to use PDE data and accessing Part B data.
                       Access to PDE data. The PDE data include information that identifies
                       the beneficiary, pharmacy, prescriber, drug, and drug cost. MEDICs
                       use PDE data to conduct proactive analysis to identify potential fraud
                       and abuse, to investigate potential fraud and abuse incidents, and to
                       fulfill requests for information from law enforcement agencies
                       investigating cases. Issues with PDE data affected MEDICs ability to
                       identify and investigate incidents of potential fraud and abuse.
                       MEDICs did not receive access to PDE data until August 2007, nearly a
                       year after their contracts began. MEDICs did have access to PDE data
                       in FY 2008; however, all three reported that there were problems with
                       accessing and learning how to use these data. The time spent learning
                       how to access and use PDE data delayed MEDICs ability to fully use the
                       data for analysis.

                       Access to important variables. MEDICs also reported that either PDE
                       data do not include, or they cannot efficiently access, certain
                       information that is vital to identifying and investigating potential fraud
                       and abuse and building case referrals. For example, the MEDICs
                       reported that PDE data do not include beneficiary demographic
                       information, such as name and address. Law enforcement agencies also
                       often ask for beneficiary information when they request information
                       from the MEDICs. One MEDIC stated that not having this information
                       available directly in the PDE makes fulfilling requests from law
                       enforcement challenging. In addition, one MEDIC also noted that the
                       beneficiary ZIP Code could not be accessed through the interface it uses
                       to mine PDE information. This MEDIC explained that when using PDE

     OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                            11
F   I N D I N G         S


                      data in a mainframe environment, it could not access the beneficiary
                      ZIP Code. The beneficiary ZIP Code could be accessed when using PDE
                      data through the desktop application MEDICs use called Cognos.
                      However, the MEDIC indicated that Cognos does not support complex
                      data mining. Two MEDICs reported developing methods to circumvent
                      barriers to accessing beneficiary address and ZIP Code information.
                      However, MEDICs reported that not having this information readily
                      available in the PDE data made conducting proactive data analysis to
                      identify or investigate potential fraud and abuse incidents difficult.

                      Problems with prescriber identifiers in PDE data. MEDICs reported
                      problems with using the PDE fields containing prescriber identifiers
                      when accessing records through Cognos. MEDICs indicated that when
                      they accessed PDE data using Cognos, different types of prescriber
                      numbers were not stored in the correct fields, which affected the results
                      of their data analysis. For example, one MEDIC reported that when
                      using Cognos to query PDE data for records with a provider’s National
                      Provider Identifier (NPI) number, it found that NPI numbers were
                      being stored in the field for Drug Enforcement Agency (DEA) numbers.
                      As a result, no PDE records were identified when queries were run
                      through Cognos using a prescriber’s NPI number. The MEDIC
                      addressed this issue by running queries with prescribers’ NPIs against
                      the DEA field. However, by the time this issue was identified, a number
                      of case referrals had been sent to OIG and requests for information from
                      law enforcement agencies had been completed. Therefore, the original
                      information sent may not have included all of the records for a
                      particular prescriber or his/her ranking among other prescribers may
                      have been inaccurate.

                      Issues with tracking changes to PDE data. Two MEDICs also pointed out
                      that PDE records may change over time and MEDICs cannot see the
                      various iterations of a PDE record when they access PDE data. For
                      example, if a plan sponsor identifies a pharmacy overpayment, it may
                      correct the improper payment and adjust the PDE record. Once the
                      adjustment is made, there is no record of the original payment amount
                      in the PDE data that MEDICs access. This means that PDE data
                      accessed at two different times may appear very different and there is
                      no way to track the changes back to the original data without going to
                      the plan sponsor for the claim. According to one MEDIC’s vulnerability
                      report, this missing information is vital to determining trends across
                      multiple plans and to quantifying the amount of potential fraud for a
                      particular pharmacy.

    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           12
 F   I N D I N G         S


                       Access to Part B data. MEDICs need Part B data to conduct proactive data
                       analysis and investigate potential Part D fraud and abuse incidents. For
                       example, Part B data include diagnosis information, which may indicate
                       whether a prescribed drug is appropriate. However, two MEDICs were
                       not given access to Part B data until the fall of 2008, 2 years after their
                       contracts began. The third MEDIC did not receive access to Part B data
                       before its contract ended. One MEDIC stated that PDE data allow it to
                       see only what drug was dispensed at the pharmacy and how much was
                       paid. Having Part B data showing that the beneficiary had a
                       corresponding doctor’s visit would help MEDICs determine whether a
                       prescription was appropriate.


     MEDICs’ lack of authority to directly obtain             The ability to access information,
                                                              such as hard copies of
information from pharmacies, pharmacy benefit
                                                              prescriptions and medical records,
managers, and physicians hindered their ability
                                                              is important for conducting
       to investigate potential fraud and abuse               investigations and developing
                                       incidents              cases. According to the MEDICs,
                       in FY 2008 they did not have the authority to directly obtain
                       prescriptions or medical records from pharmacies, pharmacy benefit
                       managers, and physicians. Federal regulations, effective in 2008,
                       required plan sponsors and their related entities, contractors, and
                       subcontractors to provide the Department of Health and Human
                       Services and its designees with access to the books and records relating
                       to the transactions under the plan sponsors’ Part D contracts with
                       CMS. 20 However, MEDICs reported that because CMS contracts with
                       plan sponsors, MEDICs had the authority to request information only
                       from the plan sponsors, not directly from first tier, downstream, and
                       related entities, such as pharmacies and pharmacy benefit managers. 21
                       In addition, MEDICs indicated that they could not obtain medical
                       records directly from physicians. One of the MEDICs reported that
                       ideally it would conduct an investigation by requesting medical records
                       from the physician to compare the diagnosis with the beneficiary’s
                       medication. The three MEDICs indicated that not being able to obtain



                           20 42 CFR § 423.505(i)(2)(i)(2008).
                           21 First-tier, downstream, and related entities are generally entities that contract with
                       plan sponsors. These entities are further defined at 42 CFR § 423.4. These entities were
                       referred to in previous regulations as related entities, contractors, and subcontractors.



     OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                            13
F   I N D I N G       S


                      information directly from these entities was a barrier in investigating
                      incidents of potential fraud and abuse.

                      New Part D regulations that took effect January 1, 2009, require that
                      plan sponsors specify in their contracts with first tier, downstream, and
                      related entities whether CMS or its agents (i.e., the MEDICs) may
                      obtain information directly from these entities or whether the plan
                      sponsor will provide the information. 22 However, if plan sponsors’
                      contracts specify that information will be provided by them and not
                      these entities, this will not address the MEDICs’ problem with
                      obtaining information directly. Additionally, this provision does not
                      address MEDICs’ authority to request medical records directly from
                      physicians.



          MEDICs may not have been aware of some                MEDICs’ ability to identify
        potential fraud and abuse incidents because             potential fraud and abuse
                                                                through external sources may
        plan sponsors are not required to refer them
                                                                have been hindered by a lack
                      of referral requirements for Part D sponsors. Of the 3,641 incidents of
                      potential fraud and abuse identified through external sources,
                      15 percent were referred by plan sponsors. However, MEDICs indicated
                      that they may not have been aware of all incidents of potential fraud
                      and abuse because plan sponsors are not required to refer such
                      incidents to MEDICs, although they are encouraged to do so. 23
                      Previous OIG work in this area indicates that few plan sponsors
                      referred incidents to MEDICs. 24 One MEDIC stated it received
                      relatively few referrals of potential fraud and abuse incidents compared
                      to the number of plan sponsors in its jurisdiction. The other two
                      MEDICs indicated that while some plans referred incidents of potential
                      fraud and abuse, other plans had never referred any such incidents.

                      Plan sponsors may also report potential fraud or abuse to law
                      enforcement agencies, such as OIG and the Department of Justice,
                      without notifying the MEDICs. Therefore, MEDICs would not have



                          22 42 CFR § 423.505(i)(3)(iv).
                          23 CMS, “Prescription Drug Benefit Manual,” Pub. No. 100-18, ch. 9, § 50.2.8.2;
                      42 CFR § 423.504(b)(4)(vi)(G)(3).
                        24 OIG, “Medicare Drug Plan Sponsors’ Identification of Fraud and Abuse,”
                      OEI-03-07-00380, October 2008.



    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           14
F   I N D I N G         S


                      been aware of these incidents and, as a result, could have missed trends
                      indicating problem providers or evidence of fraud schemes.



CMS did not give MEDICs approval to conduct                 Plan sponsors must have
                                                            compliance plans with measures
         audits of plan sponsors’ compliance
                                                            to detect, correct, and prevent
                             plans in FY 2008
                                                            fraud, waste, and abuse. These
                      compliance plans must include certain elements, such as procedures for
                      effective internal monitoring and auditing and procedures for ensuring
                      prompt responses to detected offenses.
                      As outlined in the Statement of Work and their individual task orders,
                      MEDICs are responsible for conducting audits of plan sponsors’
                      compliance plans. However, none of these audits were conducted in
                      FY 2008. All three MEDICs indicated that they were prepared to
                      conduct compliance plan audits in FY 2008 but were not given approval
                      by CMS to do so. One MEDIC indicated that it had the funds to begin
                      the compliance plan audits but that CMS had not given approval to
                      start conducting them.

                      Without compliance plan audits, there is no way to determine whether
                      plan sponsors have these elements in place. Between October and
                      December 2008, 2 years after MEDICs’ regional contracts began, the
                      two remaining MEDICs did receive approval from CMS to begin
                      10 audits of plan sponsors’ compliance plans. As of June 2009, six of
                      these audits had been completed.




    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           15
Δ   R E C O M M E N D A T I O N S

                  In 2005, prior to the start of the Part D program, CMS outlined a
                  strategy in which innovative data analysis, conducted primarily by
                  MEDICs, was one of the keys to combating Part D fraud and abuse.
                  The Part D program is now in its fourth year, and while CMS has
                  reprioritized its oversight activities since 2005 because of budget
                  shortfalls, proactive data analysis remains an important tool in its
                  efforts to fight Part D fraud and abuse.

                  Combating Part D fraud and abuse involves a number of key
                  participants, including CMS, plan sponsors, and MEDICs. Previous
                  OIG reviews have focused on plan sponsors’ identification of fraud and
                  abuse as well as CMS’s oversight of the Part D program. All of these
                  reviews have identified vulnerabilities in the efforts to combat Part D
                  fraud and abuse. One study found that a few plan sponsors identified
                  most of the potential fraud and abuse incidents and a quarter identified
                  none. Another study found that most plan sponsors’ compliance plans
                  did not meet all requirements. Two additional studies focused on CMS’s
                  oversight of the Part D program. One of these studies found that CMS
                  conducted limited followup on the deficiencies that OIG had identified
                  regarding sponsors’ compliance plans. The other study found CMS had
                  not conducted any significant data analysis for fraud detection purposes
                  and had relied largely on complaints to identify potential fraud and
                  abuse.

                  Our current review found that during their second year of operations,
                  MEDICs identified most incidents of potential fraud and abuse through
                  external sources, such as complaints, rather than proactive methods. In
                  addition, MEDICs’ ability to identify and investigate potential fraud
                  and abuse incidents has been hindered by problems with accessing and
                  using data, lack of authority to directly obtain information from certain
                  entities, and limited referrals from plan sponsors. Also, CMS did not
                  give MEDICs approval to conduct compliance plan audits in FY 2008 to
                  determine whether plan sponsors’ compliance plans included required
                  measures to detect, correct, and prevent fraud, waste, and abuse.
                  CMS’s strategy was intended to combat fraud and abuse, partially
                  through data analysis. However, MEDICs reported that barriers
                  hindered their ability to consistently conduct comprehensive data
                  analysis to detect and prevent potential fraud and abuse.




OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                       16
R   E C O        M M E N D A T                             I O N                S


                      Therefore we recommend that CMS:
                      Ensure MEDICs have access to accurate and comprehensive data to assist
                      them in identifying and investigating potential fraud and abuse and
                      conducting proactive data analysis
                      CMS should work with MEDICs to identify what specific changes to the
                      content or structure of PDE, Part B, or other data are needed to allow
                      MEDICs to more readily conduct proactive data analysis and respond to
                      requests from law enforcement.
                      Authorize MEDICs to directly obtain information that they need to identify
                      and investigate potential fraud and abuse from entities, such as pharmacies,
                      pharmacy benefit managers, and physicians
                      While we recognize that implementing this recommendation may
                      require statutory or regulatory change, allowing MEDICs direct access
                      to these entities is vital to their ability to effectively identify and
                      investigate potential fraud and abuse.
                      Require plan sponsors to report all potential fraud and abuse incidents that
                      are referred to law enforcement agencies to MEDICs as well
                      If plan sponsors refer potential fraud and abuse to law enforcement
                      agencies, they should also share this information with MEDICs to help
                      MEDICs identify fraud and abuse trends and target problem providers.
                      Ensure MEDICs have approval to conduct compliance plan audits that they
                      are responsible for under their task orders and Statement of Work
                      While MEDICs did not have CMS’s approval to conduct compliance plan
                      audits in FY 2008, they did receive approval to conduct 10 of these
                      audits in early FY 2009. CMS should make approval of additional
                      compliance plan audits a priority in the future.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with three of our four recommendations. CMS stated
                      that it is committed to ensuring that its contractors have access to the
                      information they need to identify, prevent, and fight Part D fraud.

                      CMS concurred with our first recommendation and stated that it is
                      building One PI, a system containing data on Part D, Part A, and Part B
                      claims that MEDICs will have access to. CMS is confident that One PI
                      will address the data concerns outlined in this report and will also
                      facilitate proactive fraud identification efforts. However, CMS did not
                      state when it expects MEDICs to have access to this system.

    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           17
R   E C O        M M E N D A T                             I O N                S


                      CMS did not indicate whether it concurred with our second
                      recommendation. Instead, CMS stated that it recognizes the value of
                      the recommendation but that its statutory authority to collect
                      information directly from downstream entities is limited because of the
                      structure of the Part D program. CMS stated that it will continue to
                      search for alternatives to enhance its efforts in this area. We
                      acknowledge in our recommendation that statutory or regulatory
                      change may be needed and we encourage CMS to seek these changes.

                      CMS concurred with our third recommendation; however, CMS stated
                      that it currently does not have the regulatory basis to require that plan
                      sponsors report these incidents. We disagree and note that our
                      recommendation does not require imposing mandatory self-reporting
                      requirements on PDP sponsors; we only recommend that, to the extent
                      such disclosures are made, CMS require them to also be reported
                      to the MEDICs. We believe current regulations at 42 CFR
                      § 423.504(b)(4)(vi)(G)(3), which provides that PDP sponsors should
                      report fraud and abuse incidents “to CMS or its designee,” give CMS the
                      ability to require that MEDICs be provided with such reports.

                      CMS concurred with our fourth recommendation and acknowledged that
                      there were delays in starting compliance plan audits. CMS stated that
                      it has recently conducted a compliance plan audit of its largest Medicare
                      Advantage and Part D contractor and that compliance plan audits will
                      continue during FY 2009. However, CMS did not indicate how many
                      compliance plan audits would be conducted in FY 2009 nor how many
                      were planned for FY 2010.

                      We ask that CMS, in its final management decision, more clearly
                      indicate whether it concurs with our second recommendation and what
                      steps, if any, it will take to implement both our second and third
                      recommendations. In addition, we ask that CMS provide more detail
                      regarding its implementation of our first and fourth recommendations.
                      The full text of CMS’s comments is provided in Appendix B.




    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           18
     Δ           A P P E N D I X ~ A


Table A-1: Top Five Types of Potential Fraud and Abuse Investigated and Referred

 Top Five Types of Potential Fraud and Abuse Investigated by Medicare Drug Integrity Contractors and Referred to
 the Office of Inspector General in Fiscal Year 2008

 Type of Fraud
 and Abuse                                                                                   Examples

                         •    Consulting a number of doctors to obtain multiple prescriptions.
 Drug Diversion
                         •    Giving or selling prescribed medication to someone else.
 by
                         •    Reselling drugs on the black market.
 Beneficiaries
                         •    Forging or altering a prescription.


                         •    Billing for drugs not provided.
                         •    Billing for brand-name drugs when generics are dispensed.
 Inappropriate           •    Billing for noncovered drugs as covered.
 Billing                 •    Billing multiple payers for the same prescription, except as required for coordination of
                              benefit transactions.
                         •    Splitting prescriptions to receive additional fees.


                         •    Writing prescriptions for drugs that are not medically necessary.
 Inappropriate
                         •    Misrepresenting dates and descriptions of prescriptions provided or the identity of the
 Prescribing
                              individual who provided the prescriptions.


                         •    Conducting unsolicited door-to-door marketing.
 Marketing               •    Enrolling a beneficiary without his/her permission.
 Schemes                 •    Offering beneficiaries a cash payment to enroll in Part D.
                         •    Using unlicensed agents.


                         •    Asking a beneficiary for banking information over the telephone.
 Theft of
                         •    Individual or organization posing as a Medicare representative with intent to steal a
 Beneficiary
                              beneficiary's identity or money.
 Identity/Money
                         •    Stealing beneficiary identification and using it to obtain drugs.

 Sources: Office of Inspector General analysis of Medicare Drug Integrity Contractors’ (MEDIC) response to data request and
 review of MEDICs’ documentation; Centers for Medicare & Medicaid Services (CMS), “MEDIC Statement of Work,” § 6.1.1,
 Rev. 2, September 28, 2007; and CMS, “Prescription Drug Benefit Manual,” Rev. 2, April 25, 2006, ch. 9, § 70.




       OEI-03-08-00420         M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                                    19
    A P PEN D                         x          B



                                          Agency Comments


       /.,aYlc~.4t,




      (" t#.~..	 DEP~RTMENT OF HEALTH & HUMAN SERVICES                                           Center$ far Medicare & Medicaid Services



      '<S~                                                                                       Admin/stra tor
                                                                                                 Wasningtan, DC 20201




                      DATE:	         ~AtJG J~ g
                      TO:	            Daniel R. Levinson

                                      Inspector General


                      FROM:	          ~arlerre Frizzera

                                                         /S/
                                      Acting Administrator


                      SUBJECT:	 Officeoflnspector General (OIG) Draft: Report: "Medicare Drug
                                Integrity Contractors' Identification olPotential Part D Fraud and Abuse"
                                      ~OEI-03-08-00420)



                      Thank yoU for the opportunity to comment on the above-referenced DIG draft report.
                      The Centers forMedkare & Medicaid Services (CMS)appteciatesthe OIG's efforts in
                      reviewing the Medicate Drugintegtiiy Contractors (MEDICs) identification offraud,
                      waste, and abuse among Part D sponsors.CMS is concerned about the risks that
                      potential fraud poses to the Part D Program,and we have remedied some of the MEDlCs
                      data access issues. We are committed to ensuring that Our ContractOrS have acCess to the
                      information they need to help us identify, prevent, and fight Part D fraUd.

                      (jIG Recommendation

                      Ensure MEDICs have access to accurate and comprehensive data to assist them in
                      identifying and investigating potential fraud and abuse and conducting proactive data
                      analysis.

                      CMS Response

                      The eMS concurs with this recommendation. CMS is currently building One PI,which
                      is a data system that wiHgive the MEDICs access to detailed data on all Part D claims, as
                      well as Parts A and B Claims. Weare confident that One PI will address the.data
                      concerns outlined in this report as well as faciiitate proactive fraud identification efforts.

                      OIG Recommendation

                      Authorize MEDICs to directly obtain inforrrtationthat they need to Identify and
                      investigate potential fraud and abuse fiomentities, such as phannacles, pharmacy benefit
                      managers, and physicians.




OEI·03·08·00420          MEDICs'   10ENTIFICATION OF POTENTIAL PART     D FRAUO   ANO ABUSE
                                                                                                                                     20
A   P   P E N D       I X              ~            B




    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           21
A   P   P E N D       I X              ~            B




    OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                           22
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tara J. Bernabe served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Nancy J. Molyneaux; central office staff who contributed include
                  Rita Wurm.




OEI-03-08-00420   M E D I C S ’ I D E N T I F I C AT I O N   OF   P O T E N T I A L PA R T D F R A U D   AND   ABUSE
                                                                                                                       23
